Office of Inspector General


August 12, 2010

MEMORANDUM

TO:                  M/CFO, Chief Financial Officer, David Ostermeyer

FROM:                IG/A/PA, Acting Director, Michael W. Clinebell /s/

SUBJECT:             Review of USAID’s Travel Card Program (Report No. 9-000-10-002-S)

This memorandum transmits our final report on the subject review. We considered your
comments on the draft in finalizing the report and have included your response in its entirety in
the appendix.

The report contains three recommendations. On the basis of information provided by
management in response to the draft information report, we determined that management
decisions have been reached on all three recommendations. Determination of final action for
these recommendations will be made by the Audit, Performance and Compliance Division on
completion of the planned corrective actions.

I appreciate the cooperation and courtesy extended to my staff during this review.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
                             SUMMARY 

To reduce U.S. Government travel costs and improve managerial oversight of
employees’ travel expenditures, Congress passed Public Law 105–264, Travel and
Transportation Reform Act, on October 19, 1998. The act mandates that all federal
employees use a travel charge card for travel expenses while on official travel, unless
their agency’s program coordinator has granted an exemption.

To comply with the act, USAID provides a Citibank travel card to its employees and
personal services contractors who are required to travel on official business.1 Citibank
issues travel cards in the employee’s name, and the employee is liable for all payments.
USAID is not responsible for delinquent or unpaid transactions on the card. However,
USAID does receive a rebate from Citibank: the higher the volume of money spent on
the card, and the fewer days taken to pay the balance owed, the higher the rebate-
earning potential. In fiscal year 2009, USAID received approximately $28,0002 in
rebates from Citibank for charges made to the individually billed travel cards.

The Financial Policy and Support Division in USAID’s Office of the Chief Financial
Officer has direct responsibility for monitoring and managing USAID’s travel card
program. For the fiscal year ended September 30, 2009, USAID had 2,691 active travel
cards, with total charges of approximately $6.8 million.3

This review was conducted to determine whether the travel card program is operating
effectively. The review found that USAID could revise existing policies and improve
certain procedures to operate the program more effectively. The review identified the
following problems: (1) cardholders did not always use their travel cards while on official
travel, (2) USAID officials did not deactivate travel cards for separated employees in a
timely manner, and (3) USAID officials could not provide documentation to confirm
compliance with Agency policies.

This report includes three recommendations to improve the operating effectiveness of
USAID’s travel card program. Specifically, we recommend that the Financial Policy and
Support Division:

•	 Update Automated Directives System Chapter 633, “Financial Management Aspects
   of Temporary Duty Travel,” to require employees and personal services contractors
   submitting travel expense claims to make a notation in the remarks section of the
   travel voucher when the travel card is not used while on official travel.




1
  Exceptions are made on a limited basis when requested by the employee and for employees
traveling no more than once per year. The policy also exempts employees and personal services
contractors from using their travel cards in locations where the U.S. Embassy has issued a
warning of credit card fraud.
2
  The dollar amount ($28,000) was not audited.
3
  Neither the number of active travel cards (2,691) nor the dollar amount ($6.8 million) was
audited.


                                                                                           1
•	 Develop a procedure for the program coordinator to review a list of separated
   employees and personal services contractors each quarter against the travel card
   vendor database for active cards to ensure that the travel cards of separated
   employees and personal services contractors are deactivated in a timely manner.

•	 Maintain documentation of the steps performed to detect improper use and
   delinquent payments.

In response to this report, the Office of the Chief Financial Officer generally agreed with
all three recommendations and presented plans to implement the recommendations by
October 1, 2010. On the basis of information provided by management in response to
the draft information report, we determined that management decisions have been
reached on the recommendations.

Management comments are presented in their entirety in the appendix.




                                                                                         2
                  REVIEW RESULTS 

The review found that USAID’s Automated Directives System (ADS) Chapter 633,
“Financial Management Aspects of Temporary Duty Travel,” includes policies and
procedures to ensure that employees understand how to request a travel card, the laws
and regulations governing the use of the card, and USAID management’s
responsibilities for making the travel card program effective. The policy also provides
officials in the Financial Policy and Support Division of USAID’s Office of the Chief
Financial Officer with guidelines for detecting improper use and delinquent payments.
However, USAID could revise existing policies and improve certain procedures to
operate the program more effectively. The review identified the following issues:

•	   Cardholders did not always use their travel cards while on official travel.

•	   USAID officials did not deactivate travel cards for separated employees in a timely
     manner.

•	   USAID officials could not provide documentation to confirm compliance with Agency
     policies.

These issues are further addressed below.


Cardholders Did Not Always
Use Their Travel Card While on
Official Travel
According to ADS Chapter 633, “Financial Management Aspects of Temporary Duty
Travel,” employees and personal services contractors are required to use the card for
official travel expenses. Travelers must use their card to pay for lodging, meals, rental
vehicles, excess baggage, and other official travel expenses. An exception may be
made on a limited basis when requested by the employee and for employees traveling
no more than once per year. The policy also exempts employees and personal services
contractors from using their travel cards in locations where the U.S. Embassy has issued
a warning of credit card fraud.

During fiscal year (FY) 2009, 7,890 travel expense claims totaling about $9.6 million4
were submitted and paid to employees and personal services contractors. From a
sample of 81 of the 7,890 travel expense claims totaling $134,264, auditors found that
51 (63 percent) were filed by employees who did not use their travel cards, and no
documentation of an exemption was available. While employees or personal services
contractors can be exempt from using the travel card, USAID’s policy does not require
the employee or personal services contractor to provide an explanation on their travel
vouchers for not using the travel card.



4
 Neither the number of travel expense claims (7,890) nor the dollar amount ($9.6 million) was
audited.


                                                                                           3
The nonuse of travel cards by employees and personal services contractors not only
violates USAID’s policy, but also reduces the rebate USAID receives from Citibank. The
amount of the rebate is based on the volume of money spent on the card and the
number of days to pay the balance owed. The higher the volume of money spent on the
card, and the fewer days taken to pay the balance owed, the higher the rebate earning
potential. During FY 2009, USAID paid $9.6 million to employees and personal services
contractors for travel expenses; however, only $6.8 million was charged to the travel
cards. If the additional $2.8 million had been charged to the travel cards, USAID could
have received approximately $8,8005 in additional rebates from Citibank.

        Recommendation 1. We recommend that the Financial Policy and
        Support Division update Automated Directives System Chapter 633,
        “Financial Management Aspects of Temporary Duty Travel,” to require
        employees and personal services contractors submitting travel expense
        claims to make a notation in the remarks section of the travel voucher
        when the travel card is not used while on official travel.


USAID Officials Did Not
Deactivate Travel Cards for
Separated Employees in a
Timely Manner
According to Automated Directives System Chapter 633, “Financial Management
Aspects of Temporary Duty Travel,” on separation from the Agency, employees and
personal services contractors must return their travel cards to the Agency program
coordinator to close their travel card accounts.

From a sample of 62 out of a total of 255 employees and personal services contractors
who separated from USAID during FY 2009, the review determined that 13 (21 percent)
employees or personal services contractors still had active travel cards. Cardholders
should get their cards deactivated prior to ending employment with USAID; however, the
cards of these separated employees and contractors were still active 3 to 12 months
after their holders’ departure.

When an employee leaves USAID, he or she is supposed to return the travel card to the
program coordinator, who is responsible for closing the employee’s account. USAID’s
Office of Human Resources is responsible for verifying that the employee has obtained
an e-mail or signature from the program coordinator indicating the travel card account
has been closed. However, the program coordinator explained that this process is not
effective because employees and personal services contractors sometimes separate
from USAID without informing the program coordinator or the Office of Human
Resources that their cards need to be deactivated.

Although the review found that these employees had not used their cards after their
separation date, USAID’s delinquency rate could rise if employees used the cards and


5
 We arrived at this figure by multiplying $2.8 million by .00315, the rate Citibank uses to rebate
USAID for payments made within 30 days of the statement date.


                                                                                                4
failed to make payment on the balance due. A higher delinquency rate could reduce the
rebate USAID receives from Citibank.

       Recommendation 2. We recommend that the Financial Policy and
       Support Division develop a procedure for the program coordinator to
       review a list of separated employees and personal services contractors
       each quarter against the travel card vendor database for active cards to
       ensure that the travel cards of separated employees and personal
       services contractors are deactivated in a timely manner.


USAID Officials Could Not
Provide Documentation to
Confirm Compliance With
Agency Policies
According to ADS Chapter 633, “Financial Management Aspects of Temporary Duty
Travel,” USAID’s program coordinator is required to review details of monthly card
transactions to detect improper use and delinquent payments. Further, according to
ADS 596, “Management’s Responsibility for Internal Control,” internal control activities
should be recorded accurately and timely, and documentation of what was performed
should be readily available.

To comply with ADS Chapter 633, USAID’s program coordinator scans two card
transaction reports monthly looking for charges made to vendors whose goods or
services are not related to the cardholder’s work and large or frequent cash
withdrawals. The program coordinator uses an Automated Teller Machine (ATM)
Transaction Report and a Merchant Category Code (MCC) Transaction Report to
complete the improper use review. The ATM Transaction Report provides a list of all
cash transactions completed by the cardholder and the date of the transactions for each
month. The ATM Report is used to identify frequent or unusual trends in cash
withdrawals. The MCC Transaction Report lists all transactions by the type of vendor
and by the cardholder each month. The MCC Report is used to identify vendors whose
goods or services are not related to the cardholders’ business (e.g., retail stores
and personal service vendors).

The program coordinator judgmentally selects card transactions and verifies that the
employee in question was approved for official travel or contacts the employee to verify
that the charges complied with USAID’s ADS Chapter 633. In addition, to detect
delinquent payments, USAID’s program coordinator identifies all employees with
payments outstanding more than 60 days6 past the due date. If an employee is
delinquent, the program coordinator advises the employee to pay the account balance
and informs the employee that continuous delinquency can result in card suspension.




6
  ADS 633, “Financial Management Aspects of Temporary Duty Travel,” defines payments as
delinquent when they are 30 days past the due date. We used this definition in conducting our
review.



                                                                                           5
The review found that USAID was unable to provide documentation of the work
performed to comply with ADS Chapter 633. For FY 2009, 21 of 24 (88 percent)
monthly card transaction reports reviewed for improper use did not have documentation
(e.g., a list of transactions reviewed) to confirm that steps were performed. Also, from a
sample of 77 delinquent accounts out of 1,250 for FY 2009, the review determined that
75 (97 percent) of the delinquent accounts selected did not have documentation (e.g.,
follow-up e-mails to employees and resolution) to confirm that steps were performed.

The program coordinator explained that he was unaware of the requirement to maintain
documentation of the steps performed to detect improper use and delinquent payments.
Consequently, USAID may not be able to confirm that the program coordinator
performed the appropriate steps to ensure that improper use and delinquent payments
are detected and addressed timely.

       Recommendation 3. We recommend that the Financial Policy and
       Support Division maintain documentation of the steps performed to detect
       improper use and delinquent payments.



       .




                                                                                        6
       EVALUATION OF 

   MANAGEMENT COMMENTS

The Office of the Chief Financial Officer (M/CFO) generally agreed with all three
recommendations. Based on management comments, a management decision has
been reached on each recommendation. Determination of final action for these
recommendations will be made by the Audit, Performance and Compliance Division on
completion of the planned corrective actions.

Recommendation 1. Management generally agreed with the recommendation to
improve card usage. M/CFO will add language to Automated Directives System Chapter
633 to require notation in the remarks section of the employee’s travel voucher when the
travel card is not used. M/CFO requested that the recommendation not include a
requirement of approval by the travel approving official because supervisory approval of
the employee’s notation cannot be accommodated in the Agency’s travel management
system (E2). The review team agrees with M/CFO’s request and has made appropriate
revisions to the draft report recommendation. The target date for completion of planned
corrective action is October 1, 2010.

Recommendation 2. Management generally agreed with the recommendation to
deactivate travel cards in a timely manner. The Financial Policy and Support Division
(M/CFO/FPS) will prepare a formalized document, USAID Travel Card Procedure
Manual, instructing the program coordinator to obtain a list of separated employees and
personal service contractors each quarter and compare the list with the travel card
database for active cards to ensure that the travel cards are deactivated in a timely
manner. The review team agrees with M/CFO’s response and has made appropriate
revisions to the draft report recommendation. The target date for completion of planned
corrective action is October 1, 2010.

Recommendation 3. Management agreed with the recommendation to maintain
documentation of the steps performed to detect improper use and delinquent payments.
M/CFO/FPS will prepare a formalized document, USAID Travel Card Procedure Manual,
outlining the steps to be performed during the monthly and quarterly reviews of card use
and delinquency data. The target date for completion of planned corrective action is
October 1, 2010.

Management comments are presented in their entirety in the appendix.




                                                                                      7
                                                                                 APPENDIX 




   MANAGEMENT COMMENTS 




MEMORANDUM               	                                                    July 27, 2010

TO:	           IG/A/PA, Acting Director, Michael W. Clinebell

FROM:	         M/CFO, David D. Ostermeyer /s/

SUBJECT:	      M/CFO Comments on Draft Informational Report of USAID’s Travel Card
               Program

This memorandum is in response to the Office of Inspector General’s request for
feedback on the draft report of USAID’s Travel Card Program. While M/CFO generally
agrees with the results of the audit as stated in the draft report we would like to point out
some of the challenges that we face in addressing the full extent of the noted
recommendations.

M/CFO recognizes that there is more to be done to make the Travel Card program more
efficient and to maximize the use of the cards, as well as the rebates. However, given
the environment that we operate in, it is unrealistic that 100% usage of the cards for
eligible purchases will be achieved in the near future.

Agency staff travel in countries and to locations which create limitations on maximizing
travel card usage. Many of the countries traveled to have high rates of credit card fraud
or are cash based economies where there is little chance to use a card. Since the
individual traveler is responsible for the card issued in their name, along with the
payment of charges, we must allow them the option not to use the cards when they
believe it might result in adverse effects.

With these comments in mind, M/CFO would like to address the specific
recommendations in the draft report:

Recommendation 1: We recommend that the Financial Policy and Support Division
update Automated Directives System 633, “Financial Management of Financial
Management Aspects of Temporary Duty Travel,” to require personnel submitting travel
expense claims to note on the travel voucher why they did not use their travel card while
on official travel, and that the notation be approved by the travel approving official.

Management Decision: The Office of the Chief Financial Officer agrees with the
recommendation to improve card usage. M/CFO will add language to ADS 633 to
require a notation in the remarks section of the employee’s travel voucher when the


                                                                                              8
                                                                               APPENDIX


travel card is not used. M/CFO asks that the recommendation not include a requirement
of approval by the travel approving official because supervisory approval of the
employee’s notation cannot be accommodated in the Agency’s travel management
system (E2).

Target Date: 10/01/2010

Recommendation 2: We recommend that the Financial Policy and Support Division
update Automated Directives System 633, “Financial Management of Temporary Duty
Travel,” to include a procedure for the program coordinator to review a list of separated
employees and personal services contractors each quarter against the travel card
vendor database for active cards to ensure that separated employees’ and personal
services contractors’ travel cards are deactivated in a timely manner.

Management Decision: The Office of the Chief Financial Officer agrees with the
recommendation to deactivate Travel Cards in a timely manner. The Financial Policy
and Support Division will prepare a formalized document, USAID Travel Card Procedure
Manual, outlining a procedure to be used by the program coordinator to obtain a list
of separated employees and personal service contractors each quarter and to compare
the list with the travel card database for active cards to ensure that travel cards are
deactivated in a timely manner.

Target Date: 10/01/2010

Recommendation 3: We recommend that the Financial Policy and Support Division
maintain documentation of the steps performed to detect improper use and delinquent
payments.

Management Decision: The Office of the Chief Financial Officer agrees with the
recommendation to maintain documentation. The Financial Policy and Support Division
will prepare a formalized document, USAID Travel Card Procedure Manual, outlining the
steps performed during the monthly and quarterly reviews, of card usage and
delinquency data. The Financial Policy and Support Division now maintains electronic
copies of all monthly reports generated and any electronic communication with card
holders. This information is now stored in a separate limited access directory, located
on an agency network drive.

Target Date: 10/01/2010




                                                                                            9
